No. 20-622
IN THE

Supreme Court of the United States
AMAZON.COM INC., ET AL.,
Petitioners,
v.
BERNADEAN RITTMANN, ET AL.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

BRIEF OF THE RESPONDENTS BERNADEAN
RITTMANN, ET AL. IN OPPOSITION TO
CERTIORARI
Shannon Liss-Riordan, Counsel of Record
Harold Lichten
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
Counsel for Respondents
January 2021

i
QUESTION PRESENTED
For more than 100 years, goods have been understood to be “in interstate commerce” any time they
are being transported from one state to another, even
during legs of that journey that occur entirely within
a single state. Workers, therefore, have been understood to be “engaged in interstate commerce,” while
transporting such goods that are in the flow of interstate commerce—even if the worker is only responsible for a part of the journey within a single state.
The Federal Arbitration Act’s transportation
worker exemption carves out “contracts of employment of seamen, railroad employees, or any other
class of workers engaged in foreign or interstate
commerce.” 9 U.S.C. § 1 (emphasis added). After undertaking a careful analysis of the statutory text and
its “ordinary meaning at the time Congress enacted
the statute”, New Prime Inc. v. Oliveira, 139 S. Ct.
532, 539 (2019), the Ninth Circuit joined the First
Circuit and other circuits in ruling that “§ 1 exempts
transportation workers who are engaged in the
movement of goods in interstate commerce, even if
they do not cross state lines,” as long as the goods
they are transporting are still on their journey to
their final destination. Rittmann v. Amazon.com,
Inc., 971 F.3d 904, 915 (9th Cir. 2020). The question
presented is whether “last-mile” drivers, who
transport goods in the flow of interstate commerce on
the last leg of their interstate journey, are engaged in
interstate commerce for purposes of the FAA even
when they themselves do not physically cross state
boundaries, in accordance with the longstanding
meaning of that phrase.

ii
TABLE OF CONTENTS
QUESTION PRESENTED .......................................... i
INTRODUCTION ....................................................... 1
COUNTER-STATEMENT OF THE CASE ................ 4
A. Factual Background .................................... 4
B. Procedural Background ............................... 6
REASONS FOR DENYING THE WRIT .................. 12
A. There is No Circuit Split Regarding the
Correct Interpretation of the Phrase
“Engaged in Foreign or Interstate
Commerce” in Section 1 of the FAA .......... 12
B. The Ninth Circuit’s Approach Correctly
Gives Effect to the Language and
Purpose of the Statute and Follows Well
Established Precedent ............................... 18
i. The Ninth Circuit Properly Looked to
the Ordinary Meaning of the Text of
Section 1 at the Time of the FAA’s
Passage ................................................. 19
ii. The Ninth Circuit’s Opinion Gives
“Engaged in Commerce” a Meaning
Consistent with the Other Enumerated
Categories of Workers in Section 1:
Railroad Employees and Seamen ........ 22
iii. The Ninth Circuit’s Opinion is True to
the Structure of Sections 1 and 2 of the
FAA ....................................................... 24

iii
iv. The Ninth Circuit’s Reliance on the
FELA Cases Was Sound (and Consistent
with the Way Many Other Courts Have
Interpreted Similar Language) ............ 25
v. Amazon’s Policy Arguments Are
Unavailing ............................................ 28
C. This Case is a Poor Vehicle for the Court
to Interpret the Meaning of “Engaged in
Interstate Commerce” in Section 1 of the
FAA............................................................. 30
CONCLUSION.......................................................... 32

iv
TABLE OF AUTHORITIES
Cases
Bacashihua v. U.S. Postal Service,
859 F.2d 402 (6th Cir. 1988) .......................... 29, 30
Cent. States, Se. & Sw. Areas Pension Fund v.
Cent. Cartage Co.,
84 F.3d 988 (7th Cir. 1996) ............................ 16, 29
Circuit City Stores, Inc. v. Adams,
532 U.S. 105 (2001) .............................................. 22
Co v. Di Donato,
256 U.S. 327 (1921) .............................................. 26
Eastus v. ISS Facility Servs., Inc.,
960 F.3d 207 (5th Cir. 2020) ................ 3, 13, 16, 31
Hill v. Rent-A-Center, Inc.,
398 F.3d 1286 (11th Cir. 2005) .................. 3, 14, 16
Int’l Broth. of Teamsters Local Union No. 50 v.
Kienstra Precast, LLC,
702 F.3d 954 (7th Cir. 2012) .......................... 16, 29
Lenz v. Yellow Transp., Inc.,
431 F.3d 348 (8th Cir. 2005) .......................... 17, 18
New Prime Inc. v. Oliveira,
139 S. Ct. 532 (2019) ..................................... passim
Palcko v. Airborne Express, Inc.,
372 F.3d 588 (2014) .............................................. 30
People of State of New York ex rel.
Pennsylvania R. Co. v. Knight,
192 U.S. 21 (1904) .......................................... 27, 28

v
Philadelphia & Reading Railway Co. v. Di
Donato,
256 U.S. 327 (1921) .............................................. 26
Philadelphia & Reading Railway Co. v.
Hancock,
253 U.S. 284 (1920) .......................................... 9, 21
Rittmann v. Amazon.com, Inc.,
971 F.3d 904 (9th Cir. 2020) ......................... passim
The Sea Lark,
14 F. 2d 201 (W.D. Wash 1926) ............................ 23
United States v. Mendoza,
464 U.S. 154 (1984) .............................................. 31
Waithaka v. Amazon.com, Inc.,
966 F.3d 10 (1st Cir. 2020) ............................ passim
Wallace v. Grubhub Holdings, Inc.,
970 F.3d 798 (7th Cir. 2020) ................ 2, 10, 15, 29
Wisconsin Central Ltd. v. United States,
138 S.Ct. 2067 (2018) ........................................... 21
Statutes
Erdman Act,
55 Cong. Ch. 370 (1898), 30 Stat. 424 ................. 23
Fair Labor Standards Act (“FLSA”),
29 U.S.C. § 207 et seq ............................................. 6
Federal Arbitration Act,
9 U.S.C. § 1 .................................................... passim

vi
Federal Employers’ Liability Act of 1908
(“FELA”),
45 U.S.C.A. § 51 ............................................. passim
Transportation Act of 1920,
66 Cong. Ch. 91 (1920), 41 Stat. 456 ................... 23

1

INTRODUCTION
The Court should deny certiorari. The panel’s decision in this case plows no new ground, creates no
intercircuit conflict, and properly applies this Court’s
recent guidance and reasoning in New Prime Inc. v.
Oliveira, 139 S. Ct. 532, 539 (2019). As New Prime
requires, the panel gave effect to the ordinary meaning of Section 1’s statutory text, which was taken virtually verbatim from another federal statute that existed at the time the FAA was passed in 1925. The
panel’s conclusion that Amazon’s “last-mile” delivery
drivers, performing the same job duties as FedEx
and UPS drivers, are exempt transportation workers
engaging in interstate commerce, is beyond reproach:
the decision is in line with the way courts in 1925 interpreted the phrase “engaged in interstate commerce” at the time of the FAA’s passage, as well as
the way similar language has been interpreted in
other statutory schemes throughout the years. See
infra, pp. 8-9, 21-22, 25-28. These courts have consistently recognized that goods that are within the
continuous flow of an interstate journey are in “interstate commerce,” even with respect to legs of that
journey that are wholly within one state’s boundaries. Moreover, the Courts of Appeals are fully in
agreement that workers like the plaintiffs here, who
deliver goods within the flow of interstate commerce,
are covered by the exemption.
The Ninth Circuit simply recognized the obvious:
that drivers delivering packages, most of which come
from out of state, are quintessential transportation
workers working in the transportation industry, just
like the other two enumerated categories of workers
covered by the exemption, seamen and railroad em-

2

ployees. The fact that Plaintiffs happen to be responsible for the last (usually but not always, intrastate)
leg of the packages’ interstate journey does not detract from the essential character of the work performed, transporting goods that are going from one
state to another.
Amazon’s effort to manufacture a circuit-split on
the issues presented by this case is unavailing. Both
appellate courts to consider the status of Amazon’s
last-mile delivery drivers have reached the exact
same conclusion that “last-mile” deliveries of interstate shipments qualify as “engaging in interstate
commerce” for purposes of Section 1 of the FAA—
even if the “last mile” is within a single state. See
Waithaka v. Amazon.com, Inc., 966 F.3d 10 (1st Cir.
2020); Rittmann v. Amazon.com, Inc., 971 F.3d 904,
915 (9th Cir. 2020). Indeed, with the exception of a
lone dissent by a single member of the panel below,
no court has criticized the reasoning or holding of the
First or Ninth Circuit’s decisions against Amazon in
Waithaka and Rittmann.
The supposed “deep divisions” among the Courts
of Appeals that Amazon cites are nonexistent. In particular, Amazon’s claim that these decisions are inconsistent with then-Judge Barrett’s recent decision
in Wallace v. Grubhub Holdings, Inc., 970 F.3d 798
(7th Cir. 2020), is incorrect. Wallace cited the First
Circuit’s decision in Waithaka approvingly. It distinguished that decision on the basis that the takeout
food the drivers in Wallace were delivering was not
on a journey from one state to another, unlike the
packages delivered by Amazon delivery drivers. The
journey of the meals was entirely local. Id. at 802-

3

803. Thus, as the Ninth Circuit noted in its decision
below, see App., infra, at 26a, n. 6, Wallace does not
stand for the proposition that a worker must physically cross state lines while transporting goods in order to qualify for the exemption. It stands for the
same proposition the decision below stands for: that
the goods a worker is transporting must be on a
journey from one state (or country) to another.
The other decisions cited by Amazon as evidence
of a circuit split do not even interpret the operative
phrase “engaged in interstate commerce” or address
whether the exemption requires workers to transport
goods across state lines. Instead, these cases involve
completely distinct questions about the Section 1 exemption: whether workers employed outside the
transportation industry, such as an account manager
for a furniture rental company, can qualify for the
exemption, when making deliveries is not the focus of
their work, see Hill v. Rent-A-Center, Inc., 398 F.3d
1286, 1289 (11th Cir. 2005); whether the exemption
covers the transportation of passengers as well as
goods and how it applies in the different factual context of ride-sharing service drivers, see Singh v. Uber
Technologies Inc., 939 F.3d 210, 228 (3d Cir. 2019);
and whether the exemption covers workers who are
one or more steps removed from the transportation of
goods, such as a gate-agent supervisor at an airport,
see Eastus v. ISS Facility Servs., Inc., 960 F.3d 207
(5th Cir. 2020). None of these distinct issues is implicated by the Ninth Circuit’s decision below, and none
of the cited decisions conflict with the Ninth Circuit’s
holding.

4

The Court should reject Amazon’s attempt to inject uncertainty into what has otherwise been a consistent line of decisions interpreting the Section 1
transportation worker exemption both before and after this Court’s recent guidance in New Prime. The
petition distorts the sound reasoning of this Court’s
New Prime decision that courts must look to the
meaning of the phrase at the time Congress enacted
it. The Ninth Circuit’s careful analysis is wholly consistent with the text and structure of the statute. The
Court considered how the phrase “engaged in commerce” was understood at the time of the FAA’s passage and how that language had been used in other
statutory schemes. The decision gives the category of
workers “engaged in commerce” a scope consistent
with that of the other enumerated categories of
workers exempted by Section 1. It also comports with
Congress’s concern regarding disrupting the free flow
of goods: “last-mile” delivery drivers like the plaintiffs play a critically important role in ensuring delivery of interstate shipments on the final leg of their
interstate journeys, lest they lie fallow in warehouses. There is no reason for this Court to disturb
this sound ruling, particularly given that there is no
disagreement among the Courts of Appeals.
COUNTER-STATEMENT OF THE CASE
A. Factual Background
Petitioners Amazon.com, Inc., and its subsidiary,
Amazon Logistics, Inc., (“Amazon”) are based out of
Seattle, Washington, and provide online retail and
delivery of a wide array of consumer goods to Amazon’s customers across the country. D. Ct. Dkt. 83, at

5

¶¶ 14, 19. Amazon Logistics advertises that its “Delivery Station teams ensure that millions of packages
reach their final destination as efficiently as possible” and help to “implement[] innovative delivery solutions.” See D. Ct. Dkt. 105-2; see also id. (“At Amazon Logistics (AMZL), our goal is to provide customers with an incredible package delivery experience
through the last mile of the order.”).
Plaintiffs are AmazonFlex delivery drivers who
worked for Amazon Logistics, Inc. delivering goods to
Amazon customers. D. Ct. Dkt. 37-1; D. Ct. Dkt. 37-2;
D. Ct. Dkt. 83, at ¶¶ 6-10. These drivers perform the
exact same type of deliveries that are performed by
package delivery drivers for UPS and FedEx. See D.
Ct. Dkt. 37, at ¶ 4 (“Products purchased through
Amazon historically have been delivered by large
third-party delivery providers (e.g., Federal Express,
UPS and the U.S. Postal Service). More recently,
Amazon has begun to supplement its use of large
providers by contracting with smaller delivery service providers (e.g., Peach, Inc.) and, now, independent contractors crowdsourced through a smartphoneapplication-based program known as Amazon Flex.”).
Specifically, these drivers transport packages on the
“last-mile” of their shipment to their final destination. See D. Ct. Dkt. 20-2, ¶ 6.
Plaintiffs report to Amazon’s warehouses where
Amazon assigns them a route and provides them
with a number of packages, which they must scan
and deliver from the warehouse to customers’ doorsteps. Id. (“At the beginning of a shift, I go to the
Amazon warehouse to pick up my assigned packages
and then I drive my assigned route, delivering all of

6

the packages I am assigned for that shift to Amazon’s
customers at their homes.”); see also D. Ct. Dkt. 83, ¶
20. Drivers occasionally cross state lines to make
their required deliveries, see, e.g., D. Ct. Dkt. 106;
however, most of the drivers’ “last-mile” package deliveries take place intrastate.
B. Procedural Background
Plaintiffs filed this case on October 4, 2016, alleging that Amazon misclassified its AmazonFlex delivery drivers as independent contractors under federal
and state law. D. Ct. Dkt. 1. Plaintiffs alleged that
the drivers have not been paid overtime for hours
worked beyond 40 per week and that drivers have
not received at least minimum wage each week, in
violation of the Fair Labor Standards Act (“FLSA”),
29 U.S.C. § 207 et seq, and state law. Id.
Plaintiffs filed a Motion for Conditional Certification and Amazon filed a Motion to Dismiss, or in the
Alternative, Compel Arbitration. D. Ct. Dkt. 20, D.
Ct. Dkt. 36. After entertaining supplemental briefing
regarding the “transportation worker exemption” to
the Federal Arbitration Act, 9 U.S.C. § 1, the district
court issued an Order denying Defendants’ Motion to
Compel Arbitration and finding that the Plaintiffs
are exempt from the FAA’s coverage. App., infra, at
78a-90a. The court held that AmazonFlex delivery
drivers were “engaged in interstate commerce” as
that term is understood in Section 1 of the FAA because they transport goods that are within the flow of
interstate commerce, on one intrastate leg of their
continuous interstate shipment. The court rejected
Amazon’s argument that the delivery drivers had to
routinely cross state lines in order to qualify for the

7

exemption, noting that such a requirement was arbitrary:
A distribution center in Northern California
receives a shipment of mattresses from New
York, some of which are then transported by
a long-haul driver to a distribution center in
Southern California, others of which are delivered by a short-haul driver to a customer
in Southern Oregon. The long-haul truck
driver would not be any less subject to the
transportation worker exemption than the
short-haul truck driver, whose route happens
to cross state lines. If an employer’s business
is centered around the interstate transport of
goods and the employee’s job is to transport
those goods to their final destination—even
if it is the last leg of the journey—that employee falls within the transportation worker
exemption.
App. at 84a-85a.
The district court further concluded that Amazon’s arbitration agreement is unenforceable because
it specifically provides that the FAA, and not Washington state law must apply to the arbitration provision. Because the agreement’s choice-of-law clause
selects Washington law, but the agreement specifically states that Washington law does not apply to
the arbitration provision, the court was left with no
body of law to apply to the arbitration provision. The
court concluded that the arbitration provision could
not be effectuated without impermissibly rewriting
the agreement, which ordinary principles of Wash-

8

ington state contract law do not allow. App. at 86a90a.
On appeal, the Ninth Circuit agreed with the district court’s reasoning and affirmed. Following this
Court’s recently enunciated guidance in New Prime,
which likewise interpreted Section 1 of the FAA, the
Ninth Circuit looked to the statutory text and its “ordinary meaning at the time congress enacted the
statute.” App. 11a (citing New Prime, 139 S. Ct. at
539). The court began by considering the dictionary
definitions of the terms “engaged” and “commerce” at
the time of the FAA’s passage in 1925. App. 12a. The
court concluded that “[t]aken together, those definitions can reasonably be read to include workers employed to transport goods that are shipped across
state lines” even if those workers themselves do not
physically cross state lines. Id.
The court found ample support for its reasoning
in the recent decision of the First Circuit Court of
Appeals, which considered the exact same issue—
whether AmazonFlex last-mile delivery drivers are
exempt from the FAA under the transportation
worker exemption—and reached the same conclusion. Waithaka v. Amazon.com, Inc., 966 F.3d 10 (1st
Cir. 2020). There, the First Circuit undertook a careful and lengthy analysis of decisions under the Federal Employees Liability Act (“FELA”) of 1908, 45
U.S.C.A. § 51, which interpreted the phrase “engaged
in interstate commerce” with respect to railroad
workers in the years leading up to the FAA’s passage. Id. at 18-23. The Waithaka court noted that
“[w]hether a worker had moved across state lines
was not dispositive” for purposes of the FELA. Id. at

9

20. Instead, workers “engaged in interstate commerce” were found to include “at least two other categories of people: (1) those who transported goods or
passengers that were moving interstate, and (2)
those who were not involved in transport themselves
but were in positions so closely related to interstate
transportation as to be practically a part of it.” Id.
(internal citations omitted). Thus, a worker operating
a train exclusively within the state of Pennsylvania
was nonetheless “engaged in interstate commerce”
because the coal on the train was being shipped interstate, and the worker was performing an intrastate leg of the larger interstate journey. Id. at 20-21
(discussing Philadelphia & Reading Railway Co. v.
Hancock, 253 U.S. 284, 40 S.Ct. 512, 64 L.Ed. 907
(1920)). Like the railroad workers under the FELA,
last-mile delivery drivers like the Plaintiffs here
make intrastate deliveries of goods on the final leg of
their interstate shipment.
The Rittmann court found the First Circuit’s careful analysis of the FELA precedents persuasive. App.
at 12a, 15a-17a. The panel also noted that other
statutes that employ the same “engaged in commerce” statutory language have likewise been interpreted by this Court to mean that “the actual crossing of state lines is not necessary.” App. at 18a (discussing the Clayton and Robinson-Patman Acts).
Thus, the Court declined to follow Amazon’s cramped
interpretation of the phrase “engaged in interstate
commerce” as requiring workers to physically cross
state lines, as there is no contemporaneous support
for such a reading, and nothing in the plain text of
the statute allows such an interpretation.

10

In reaching this decision, the Rittmann court distinguished a line of cases involving takeout food delivery drivers for so-called “gig economy” companies
like GrubHub, Postmates, Caviar, and DoorDash, because “prepared meals from local restaurants are not
a type of good that are indisputably part of the
stream of commerce.” App. at 25-26a (internal citation omitted). Now-Justice Barrett recognized the
same distinction in Wallace v. Grubhub Holdings,
Inc., where the Seventh Circuit held that, to fall
within the Section 1 exemption, workers “must
themselves be ‘engaged in the channels of foreign or
interstate commerce.’ ” 970 F.3d at 802 (emphasis in
original). Under these cases, takeout food delivery
drivers are not engaged in the channels of interstate
commerce simply because some ingredients in the
takeout meals they deliver were once grown or harvested out of state, because the meals themselves are
not traveling from one state to another. By contrast,
Amazon delivery drivers who perform the last leg of
an interstate shipment are engaged in the channels
of interstate commerce because the goods they deliver are on a journey from one state to another. Wallace makes this very distinction, citing approvingly to
Waithaka and contrasting the facts presented there
(“truckers who drive an intrastate leg of an interstate
route”) with those of takeout food delivery drivers
who deliver meals whose ingredients happen to have
been cultivated out-of-state. 970 F.3d at 802.
The Ninth Circuit also noted that the nature of
the business employing the transportation workers
in question is relevant insofar as the residual clause
should be interpreted in light of the preceding categories of workers—seamen and railroad employees—

11

which refer to workers employed by particular industries involved in the interstate movement of goods.
App. at 28a. The Ninth Circuit correctly recognized
that Amazon is involved in the interstate shipment of
goods in the same manner as FedEx, UPS, and other
delivery companies, whose drivers have consistently
been found exempt from the FAA. App. at 29a (citing
Harden v. Roadway Package Systems Inc., 249 F.3d
1137, 1140 (9th Cir. 2001) (holding delivery driver for
predecessor company of FedEx fell within the § 1 exemption)).
Having concluded that Amazon delivery drivers
were exempt from the FAA, the court considered the
text of Amazon’s contract with the drivers, including
the severability and choice-of-law clauses. The court
agreed that the choice-of-law provision expressly
states that Washington law would not apply to the
arbitration provision. The court noted that there was
no way to construe the contract so as to allow Washington law to apply to the arbitration provision without impermissibly rewriting the parties’ agreement.
Because there was no body of law that applied to the
arbitration provision, the Ninth Circuit agreed that
no valid arbitration agreement existed, and it affirmed the district court’s decision to deny Amazon’s
motion to compel arbitration.
Amazon petitioned for rehearing en banc, and the
full Ninth Circuit denied the petition.

12

REASONS FOR DENYING THE WRIT
A. There is No Circuit Split Regarding the
Correct Interpretation of the Phrase
“Engaged in Foreign or Interstate Commerce” in Section 1 of the FAA
Although the circuits are in agreement on the issue raised by this case, Amazon attempts to manufacture a circuit split by arguing that some courts
considering Section 1 (such as the Ninth Circuit below) have focused their analysis on the nature of a
business’s activities while other courts have focused
their analysis on the workers’ activities and whether
they physically transport goods across state lines.
Pet. at 15. According to Amazon, this alleged inconsistency has led to confusion and inconsistent results.
Amazon’s argument is wrong. First, the argument
rests on a mischaracterization of the Ninth Circuit’s
analysis in this case as focusing only on the nature of
the company’s activities rather than the workers’ activities; in reality, the court considered both the nature of the business for which Amazon drivers perform their work (the interstate shipment and delivery of goods) and the nature of the work the drivers
perform (the “last-mile” delivery of interstate shipments to their final destination). As the Ninth Circuit explained:
Although our ultimate inquiry is whether a
class of workers is ‘engaged in ... interstate
commerce,’ … [t]he nature of the business for
which a class of workers perform their activities must inform that assessment. After all,

13

workers’ activities are not pursued for their
own sake. Rather, they carry out the objectives of a business, which may or may not involve the movement of persons or activities
within the flow of interstate commerce.
App. at 28a (quoting Waithaka, 966 F.3d at 22).
Thus, the Ninth Circuit and First Circuit have
looked to both the nature of the business for which
the workers performed services and the activities of
the workers—an approach that is fully consistent
with that of every other court to consider the contours of Section 1.
Amazon insists that other courts in the Fifth,
Eleventh, and Seventh Circuits have looked exclusively to the activities of the class of workers in question and not to the nature of the business for which
the work is performed. But again, Amazon mischaracterizes the cases to create the appearance of disagreement where none exists. None of the decisions
Amazon cites holds that a court must ignore the nature of an employer’s business in considering whether an employee is “engaged in commerce.”
For instance, Amazon claims that the Fifth Circuit’s decision in Eastus, finding that a supervisor of
gate and ticketing agents at an airport was not exempt under Section 1, “makes no sense if, as this
case and Waithaka hold, the operations of the airline
are paramount” because airlines are clearly involved
in interstate transportation of goods and passengers.
Pet. at 18. But as explained above, Waithaka and
Rittmann do not hold that the nature of the business

14

is paramount; if that were so, then presumably any
employee of Amazon, from a call center representative assisting with orders to a janitor to an executive,
would be exempt under Section 1 simply because the
company is engaged in the interstate shipment of
goods, without regard to the actual activities performed by the workers. But Waithaka and Rittmann
hold nothing of the sort; instead, these cases merely
make the (uncontroversial) observation that “the nature of the business for which a class of workers perform their activities must inform th[e] assessment.”
App. at 28a (quoting Waithaka, 966 F.3d at 22) (emphasis added).
This observation that the nature of the business
must inform the Section 1 analysis accords with the
approach taken by other courts. For example, in Hill
v. Rent-A-Ctr., Inc., another case cited by Amazon,
the Eleventh Circuit held that an account manager
for a furniture rental company was not exempt under
Section 1, noting that “[t]he emphasis…[i]s on a class
of workers in the transportation industry, rather
than on workers who incidentally transported goods
interstate as part of their job in an industry that
would otherwise be unregulated.” 398 F.3d 1286,
1289 (11th Cir. 2005) (emphasis added). By considering the industry in which the plaintiff worked, as
well as his actual job duties, the Eleventh Circuit,
like the First and Ninth Circuits, concluded that both
the nature of the business and the activities of the
worker were relevant to the inquiry; there, the plaintiff had occasion to make some interstate deliveries
of furniture, but it was only one small part of his duties as an account manager, and the furniture rental

15

company he worked for was not involved in the interstate shipment of goods, as Amazon is in this case.1
Likewise, Amazon’s repeated assertion that an
inter-circuit conflict exists based on tension between
the Ninth Circuit’s decision in Rittmann and the
Seventh Circuit’s decision in Wallace is plainly incorrect given that the Rittmann court expressly considered Wallace and affirmed that its analysis and outcome was consistent with Wallace, and Wallace cited
approvingly to Waithaka. App25a-26a (distinguishing “local food delivery drivers” like those at issue in
Wallace “because the prepared meals from local restaurants are not a type of good that are indisputably
part of the stream of commerce”); Wallace, 970 F.3d
at 802 & n. 2 (Wallace citing Waithaka approvingly).
Moreover, Wallace’s test for determining whether
Section 1 applies ̶ which asks whether interstate
movement of goods is a central part of the workers’
job description ̶ is fully consistent with the decision
in Rittmann because here, the drivers’ job description
of delivering goods on the final leg of their interstate
––––––––––––––––––––––––
Though framed differently, Wallace v. GrubHub Holdings
Inc., makes a similar point by noting that “dry cleaners who
deliver pressed shirts manufactured in Taiwan and ice cream
truck drivers selling treats made with milk from an out-of-state
dairy” are not covered by the exemption simply because the
products they deliver originated out-of-state. 970 F.3d at 802.
These workers do not deliver goods that are traveling from one
state to another, but they also do not work for companies involved in the interstate shipment of goods like Amazon; their
job duties do not involve the “channels of foreign or interstate
commerce” in the same way that a last-mile delivery driver
completing an interstate shipment is directly involved in the
channels of interstate commerce.
1

16

journey shows that “the interstate movement of
goods is a central part of the job description.” Wallace, 970 F.3d at 803. It is clear that Wallace and
Rittmann are in accord with one another.
Contrary to Amazon’s contentions, Wallace did
not hold that drivers must cross state lines in order
to qualify for the exemption. Likewise, prior decisions by the Seventh Circuit do not hold that crossing
state lines is required to qualify for the exemption
but only that doing so may be sufficient to render delivery drivers exempt, even when they only “occasionally” cross state lines in the course of their deliveries. See, e.g., Int’l Broth. of Teamsters Local Union
No. 50 v. Kienstra Precast, LLC, 702 F.3d 954, 957
(7th Cir. 2012); Cent. States, Se. & Sw. Areas Pension
Fund v. Cent. Cartage Co., 84 F.3d 988, 993 (7th Cir.
1996).
In sum, the decisions of the Fifth, Eleventh, and
Seventh Circuits in Eastus, Hill, and Wallace do not
conflict with the holding in this case. Each involved
very different facts, but their analyses were wholly
consistent with the approach taken here of considering both the Plaintiffs’ work and the nature of the
business for which it was performed. There is no inter-Circuit conflict.
Amazon also contends that the Third and Eighth
Circuits have adopted “multifactor standards” to determine Section 1’s applicability, which are inconsistent with the standard applied by the Ninth Circuit here. Pet. at 20-22 (citing Singh v. Uber Technologies Inc., 939 F.3d 210, 228 (3d Cir. 2019), and
Lenz v. Yellow Transp., Inc., 431 F.3d 348, 352 & n.2

17

(8th Cir. 2005)). But Amazon is incorrect on both
counts. The Eighth Circuit in Lenz simply applied
criteria to determine if the worker in question was a
“transportation worker,” even though the worker did
not personally perform any transportation activities.
Lenz was focused on a different question, and in analyzing that question it harmonized various factors
considered by other circuit courts in applying the
transportation worker exemption. Thus, Lenz’s analysis is not at all inconsistent with the Ninth Circuit’s
decision here.
Likewise, the Third Circuit in Singh articulated a
test for determining whether workers are “engaged
in interstate commerce” that is entirely consistent
with the Ninth Circuit’s decision here, finding that to
qualify for the exemption, a class of workers must be
engaged in commerce or work so closely related as to
be in practical effect a part of interstate transportation. 939 F.3d at 219. However, the Singh court remanded the case because it concluded that it had inadequate facts to address “the engaged-in-commerce”
inquiry, which the district court did not reach below.
939 F.3d at 214, 226-27.2 Moreover, Singh was addressed more to the question of whether transportation of passengers could qualify for the exemption,
but its vision of what it means to be “engaged in interstate commerce” is entirely consistent with
––––––––––––––––––––––––
The district court in Singh dismissed the case on a motion
to dismiss, prior to any discovery, based on the court’s conclusion that a class of workers transporting passengers (as opposed
to goods) could not qualify for the Section 1 exemption. Id. at
214. The bulk of the Singh decision was devoted to resolving
this issue and ultimately reversing the district court.
2

18

Rittmann by its focus on whether the worker’s job is
so inextricably linked to interstate commerce as to be
in practical effect a part of it.
Neither the court in Lenz nor Singh had occasion
to consider whether Section 1 requires that workers
physically cross state lines. In other words, neither
of these cases are on point to the issue addressed in
this case, and to the extent their “approach” departed
from the Ninth Circuit’s here, the courts’ analyses
addressed different issues. Again, Amazon stretches
to find any difference in these cases that it can spin
into a “deep division” warranting this Court’s intervention. But as set forth above, there is no Circuit
split here that would require this Court’s extraordinary intervention. To the contrary, every appellate
court to have considered the question has agreed:
workers who transport goods that traveling from one
state to another within the flow of interstate commerce, are exempt from the FAA.
B. The Ninth Circuit’s Approach Correctly
Gives Effect to the Language and Purpose of the Statute and Follows Well Established Precedent
Amazon also argues that review is required because the Ninth Circuit reached the wrong conclusion in finding Amazon’s last-mile package delivery
drivers were exempt from the FAA’s coverage. In the
absence of a conflict, such a factbound claim of error
would not warrant review by this Court, even if it
had merit. Here, the claim of error is baseless: the
decision below is sound, as the full court recognized
in denying Amazon’s petition for en banc rehearing.

19

i. The Ninth Circuit Properly Looked
to the Ordinary Meaning of the
Text of Section 1 at the Time of the
FAA’s Passage
According to Amazon, the statutory text of Section
1 is clear that the exemption only covers “workers
who, considered as a class, are engaged in nonlocal
transportation across state or national boundaries.”
Pet. at 23.3 But in fact, it is Amazon’s reading of the
statute that is not supported by its text; nowhere
does the exemption refer to “nonlocal” transportation
or mention state or national boundaries. Amazon argues that dictionary definitions of “interstate commerce” and “engage” prove that the exemption applies only to workers occupied or employed in the
transportation of goods between one state and another, citing Judge Bress’s dissenting opinion below. See
Pet. at 23. But, as the majority pointed out, Judge
Bress relied upon the “the same dictionaries we use
to ascertain the FAA’s meaning at is enactment.”
App. at 30a-31a, n. 9.
Dictionary definitions from the years prior to the
FAA’s enactment in 1925 make clear that being en––––––––––––––––––––––––
Amazon drivers do cross state lines at times to make deliveries and sometimes travel lengthy distances to make deliveries. D. Ct. Dkt. 106; D. Ct. Dkt. 83, ¶ 22. The factual record
does not include information about how often drivers, as a class,
cross states lines or the average distance of a delivery. Plaintiffs
do not believe that these facts are relevant or should have any
bearing on the outcome, but the fact that the record here is silent on these issues further counsels against granting the petition. As set forth further infra, Part III, this case is not the
right vehicle for the Court to take up these questions.
3

20

gaged in interstate commerce included the intrastate
transport of goods that were being shipped from one
state to another. See, e.g., Bouvier’s Law Dictionary
and Concise Encyclopedia 532 (8th ed. 1914) (explaining that goods were in interstate commerce from
the time they were “actually shipped or started in the
course of transportation to another state or foreign
country” until reaching their final destination, even
if the final leg of that journey was entirely within a
single state; “[A]n express company taking goods
from a steamer or railroad and transporting them
through the street of the city to the consignee is still
engaged in interstate commerce”). Amazon’s interpretation requires this Court to ignore the widely
understood meaning of “interstate commerce” in
1925.
Moreover, the other enumerated categories of
workers in Section 1, seamen and railroad employees, cover broad categories of workers, including individuals who do not physically transport goods
across state boundaries. Contrary to Amazon’s contentions, the plain language of the statute and cases
interpreting similar language at the time of the
FAA’s passage make clear that workers engaged in
transportation of goods shipped interstate would
qualify for the Section 1 exemption, even when their
particular leg of the interstate journey occurs entirely within one state’s boundaries. This interpretation
does not read the word “interstate” out of the statute,
as Amazon erroneously claims, but instead gives effect to the words as they were understood in 1925,
when it already was well established that the word
interstate focuses on the journey of the goods.

21

The Ninth Circuit’s analysis is consistent with
this Court’s recent guidance in New Prime “that
words generally should be ‘interpreted as taking
their ordinary ... meaning ... at the time Congress
enacted the statute.” 139 S. Ct. at 539 (quoting Wisconsin Central Ltd. v. United States, 138 S.Ct. 2067,
2074 (2018)). The Ninth Circuit, like many courts
before it, looked to the FELA cases that predated
Congress’s enactment of the FAA for guidance regarding how to interpret the FAA, and in particular,
the phrase “engaged in interstate commerce” in Section 1. Tenney Eng'g, Inc. v. United Elec. Radio &
Mach. Workers of Am., (U.E.) Local 437, 207 F.2d
450, 453 (3d Cir. 1953). In cases decided under
FELA, this Court held that workers who performed
only intrastate transportation and who never crossed
state lines were nonetheless “engaged in interstate
commerce”. For example, in Philadelphia & R R Co
v. Hancock, 253 U.S. 284, 285 (1920), the Court held
that even where “[t]he duties of the [train crew
member] never took him out of Pennsylvania,” and
he solely transported coal to a destination two miles
away, he was nonetheless engaged in interstate
commerce because the coal he was transporting was
bound for another state. Id. at 286. The FELA decisions are directly analogous and provide clear support for the Ninth Circuit’s decision below.
The Ninth Circuit also considered how similar
statutory language has been interpreted in other
statutes after the FAA’s passage, such as the Clayton
Act and the Robinson Patman Act, which also supported its interpretation below. App. at 18a-19a. Indeed, in interpreting Section 1 of the FAA, this Court
in Circuit City Stores, Inc. v. Adams, 532 U.S. 105,

22

117 (2001), cited approvingly to cases decided under
the Clayton Act and the Robinson Patman Act, which
construed the phrases “employed in commerce” or
“engaged in commerce” not “to require businesses or
employees to cross state lines.” App. at 19a. See Circuit City, 532 U.S. at 118 (citing Gulf Oil Corp. v.
Copp Paving Co., Inc., 419 U.S. 186, 195 (1974), and
noting that the “engaged in commerce” language
“denote[s] only persons or activities within the flow of
interstate commerce—the practical, economic continuity in the generation of goods and services for interstate markets and their transport and distribution
to the consumer.”). By contrast, Amazon has not
supplied any case law from the time of the FAA’s
passage or since that would support its interpretation of the phrase “engaged in interstate commerce”
as requiring a worker to physically cross state borders as part of a long-distance, nonlocal, trip.
ii. The Ninth Circuit’s Opinion Gives
“Engaged in Commerce” a Meaning
Consistent with the Other Enumerated Categories of Workers in Section 1: Railroad Employees and
Seamen
Amazon also argues that the Ninth Circuit’s opinion is flawed because Amazon’s “last-mile” delivery
drivers are not similar to the other enumerated categories of workers in the statute, railroad employees
and seamen. Pet. at 24-25. But the Ninth Circuit
correctly rejected this argument. Nothing about the
terms “seamen” and “railroad employees” implies
that these categories of workers only perform longdistance deliveries across state lines. Indeed, this

23

Court recognized this fact in New Prime where it
looked to statutes such as the Transportation Act of
1920, 66 Cong. Ch. 91 (1920), 41 Stat. 456, and the
Erdman Act, 55 Cong. Ch. 370 (1898), 30 Stat. 424,
to better understand how the term “railroad employees” was understood when the FAA was passed. New
Prime, 139 S. Ct. at 542-43 (“In 1922, for example,
the Railroad Labor Board interpreted the word ‘employee’ in the Transportation Act of 1920 to refer to
anyone ‘engaged in the customary work directly contributory to the operation of the railroads.’ ”). For instance, the Erdman Act “defined ‘employees’ as ‘all
persons actually engaged in any capacity in train operation or train service of any description.’ ” Id. at
543, n. 12. Similarly, the term “seamen” was understood to encompass “shipboard surgeons who tended
injured sailors.” Id. at 543; see also The Sea Lark, 14
F. 2d 201, 201-02 (W.D. Wash 1926) (describing
cooks, surgeons, and bartenders as seamen, and
holding that musicians on a boat used for excursions
were seamen).
The statutes and cases cited by this Court in New
Prime make clear that seamen are individuals employed on a boat, and railroad employees are individuals employed (in any capacity) by railroads; nothing
about these terms suggest that seamen and railroad
employees must, by definition, physically transport
goods across state lines or over long distances. By extension, workers who are drivers, delivering interstate goods, employed as part of an interstate supply
chain, are plainly in the same general category of
transportation workers engaged in interstate commerce, whether or not they themselves physically
cross state lines. Thus, the Ninth Circuit’s decision is

24

true to the text of the statute and properly gives effect to the other enumerated categories of workers in
Section 1.
iii. The Ninth Circuit’s Opinion is True
to the Structure of Sections 1 and 2
of the FAA
Amazon also argues that the Ninth Circuit’s decision “conflicts with…important structural features of
the statute.” Pet. at 24, 27-28. Specifically, Amazon
alleges that the language of Section 2 extends the
FAA’s general coverage to all transactions involving
foreign or interstate commerce, while the language of
Section 1 focuses on the work the class of workers
performs, and Amazon insists that the Ninth Circuit
here failed to properly focus on the work performed
by the Plaintiffs as Section 1 requires. Pet. at 27.
But, again, the Ninth Circuit did look at the work
the class of workers performs ̶ namely, last-mile deliveries of interstate shipments of consumer goods ̶
and it correctly concluded that this activity constitutes engaging in interstate commerce under Section
1. Amazon attempts to malign the Ninth Circuit’s
approach as having focused on Amazon’s business
rather than the workers’ activities, but, as set forth
supra, pp. 12-13, this characterization of the decision
is inaccurate. In reality, Amazon simply disagrees
with the Ninth Circuit’s interpretation of what it
means to be engaged in interstate commerce. The
crux of the issue boils down to whether crossing state
lines by the workers is necessary, and as the FELA
cases make clear, neither Congress—or the ordinary
American—would have understood Section 1’s language to require that workers physically cross state

25

lines in order to be engaged in interstate commerce.
Thus, the Ninth Circuit’s reasoning is sound, and
Amazon’s efforts to argue otherwise are unavailing.
iv. The Ninth Circuit’s Reliance on the
FELA Cases Was Sound (and Consistent with the Way Many Other
Courts Have Interpreted Similar
Language)
Next, Amazon attacks the Ninth Circuit’s reliance
on the FELA cases, Pet at 27-30, but its arguments
misfire for a number of reasons. First, the Court of
Appeals’ analysis is directly in step with this Court’s
analysis in New Prime ̶ to glean the meaning of the
words in the FAA exemption by looking at the meaning of those words at the time of enactment. See New
Prime, 139 S. Ct. at 539.
Second, Amazon argues that, because the statutory language in FELA is not identical to that used in
Section 1 of the FAA, the court is precluded from
looking at the FELA precedents. Pet. at 27. This argument is nonsensical. Indeed, this Court in Circuit
City repeatedly looked to the way similar (though not
identical) language was used in other statutes. See
Circuit City, 532 U.S. at 117-18 (discussing how the
phrases “in commerce” and “engaged in commerce”
have been interpreted under the Federal Trade
Commission Act and the Clayton Act). Indeed, the
language of the FELA is interchangeable with the
language of the FAA insofar as courts have repeatedly held that the inquiry under the FELA is whether
the worker in question is “engaged in interstate
commerce.” Philadelphia, B. & W. R.R. v. Smith, 250

26

U.S. at 102, 104 (1919); Philadelphia & R. Ry. Co v.
Di Donato, 256 U.S. 327, 329–331 (1921) (using
phrases interchangeably).
Third, Amazon argues that “FELA’s jurisdictional
provision requires that the rail carrier be ‘engaging
in commerce between any of the several States’” and
is therefore “oriented more around the work of the
common carrier” than the worker. Pet. at 28. But Supreme Court case law makes clear that the inquiry
under the FELA is whether the employee was engaged in interstate commerce. See, e.g., Philadelphia,
B. & W. R.R., 250 U.S. at 104 (stating that question
is whether employee was “engaged in interstate
commerce within the meaning of the statute” and answering that question by stating that employee “was
employed . . . in interstate commerce”). The First
Circuit, on which the Ninth Circuit relied below, correctly rejected this very argument in Waithaka, noting that “the FELA applied only when both the carrier and the injured employee had been engaged in interstate commerce.” Waithaka, 966 F.3d at 21. “That
is, the FELA was concerned with the activities of
employees, just as the FAA is.” Id.
Fourth, Amazon argues that the FELA’s purposes
are the opposite of the FAA exemption’s purposes in
that FELA was a broad remedial statute that should
be interpreted liberally construed, such that the
FELA precedents are inapposite. Pet. at 28-29. But
at the time of the FELA’s passage, the phrase “engaged in commerce” had to be construed narrowly because this Court had held that Congress’s Commerce
Clause power was narrow. See, e.g. The Employers’
Liability Cases, 207 US 463 (1908). Regardless of the

27

purpose of FELA, that phrase itself was given a very
strict, narrow construction or the statute would have
exceed Congress’s authority. The First Circuit in
Waithaka correctly rejected this argument, noting
that “there is no indication that the remedial purpose
of the FELA affected the Supreme Court’s conclusion
that injured railroad workers who were transporting
within one state goods destined for or coming from
other states—activities comparable to those performed by Waithaka—were engaged in interstate
commerce.” Id. at 22. Instead, in “the FELA precedents that we have discussed, the question before the
Court was the same as it is here: whether certain
transportation workers engaged in interstate commerce.” Id. at 21.
Finally, Amazon argues that the FELA precedents are inapposite because they address rail transportation, which is different than the last-mile package deliveries performed here. Pet. at 29-30. Amazon’s argument is curious, given that railroad workers are one of the other two enumerated categories of
workers in the exemption, and thus, statutes addressing what it means for railroad workers to be engaged in interstate commerce at the time of the
FAA’s passage are among the most apt sources of authority available. Amazon cites People of State of
New York ex rel. Pennsylvania R. Co. v. Knight, 192
U.S. 21, 26, 24 S. Ct. 202, 202, 48 L. Ed. 325 (1904),
in support of its contrary interpretation of Section 1,
but that case actually supports Plaintiffs’ position.
The Court acknowledged that “a single act of carriage or transportation wholly within a state may be
part of a continuous interstate carriage or transportation,” and observed that a leg of an interstate

28

shipment from New York to Pennsylvania which occurs “only within the limits of New York” is nonetheless interstate in nature. Knight supports the Ninth
Circuit’s interpretation here, as the court correctly
recognized below. App. at 23a-24a (discussing
Knight).
v. Amazon’s Policy Arguments Are
Unavailing
Finally, Amazon resorts to policy arguments, insisting that its favored interpretation of Section 1 is
more administrable and more true to the FAA’s proarbitration purposes. But as this Court recognized in
New Prime, “[i]f courts felt free to pave over bumpy
statutory texts in the name of more expeditiously advancing a policy goal, we would risk failing to
‘tak[e]...account of’ legislative compromises essential
to a law’s passage and, in that way, thwart rather
than honor ‘the effectuation of congressional intent.’”
New Prime Inc., 139 S. Ct. at 543.
In any case, Amazon’s proposed reading of Section
1 would not result in a rule that is any clearer or
more administrable than the one adopted by the
First and Ninth Circuits below. Even if this Court
were to require workers to physically cross state
lines to qualify for the exemption, there would still be
debate about who qualifies. For instance, Amazon
refers to “local deliveries” as falling outside the exemption, but some AmazonFlex drivers have traveled
long distances to make deliveries or have crossed
state lines to deliver a package. See D. Ct. Dkt. 106;
D. Ct. Dkt. 83, ¶ 22. The test focuses on the “class of
workers”, rather than individual workers. See Singh,
939 F.3d at 227; Bacashihua v. U.S. Postal Service,

29

859 F.2d 402, 405 (6th Cir. 1988). If crossing state
lines were the touchstone of the test, parties would
be plunged into discovery regarding how often this
type of delivery happened, and there would be litigation about how often a class of workers must cross
state lines in order to be “enough” to qualify for the
exemption. See Kienstra, 702 F.3d at 957 (where
truckers estimated making a few dozen interstate
deliveries out of 1500 to 1750 deliveries each year,
the court held that “[a]lthough Illini Concrete was
primarily engaged in operations within Illinois, its
truckers occasionally transported loads into Missouri. This means that the truckers were interstate
transportation workers within the meaning of § 1 of
the FAA.”) (emphasis added); Cent. States, Se. & Sw.
Areas Pension Fund v. Cent. Cartage Co., 84 F.3d
988, 993 (7th Cir. 1996) (Section 1 exemption applied
even where defendant was “primarily engaged in local trucking and occasionally transports cartage
across state lines”) (emphasis added). Likewise, what
constitutes a “local delivery” ̶ a phrase that appears
nowhere in the statute ̶ would no doubt be the subject
of heated debate.
Contrary to Amazon’s contentions, there is nothing arbitrary about the result of the First and Ninth
Circuit’s test below; it is precisely how this Court has
interpreted what it means to be engaged in interstate
commerce for more than a century. Amazon attempts
to compare the work of the drivers here to that of
other so-called gig economy workers like the takeout
food delivery drivers at issue in Wallace. However,
the work performed by Amazon drivers is materially
different insofar as they are delivering packages that
have clearly traveled interstate, like FedEx, UPS, or

30

USPS delivery people. If GrubHub drivers are modern-day pizza delivery drivers, then the Amazon
drivers here are modern-day UPS drivers. Courts
have long distinguished between such work.
C. This Case is a Poor Vehicle for the Court
to Interpret the Meaning of “Engaged in
Interstate Commerce” in Section 1 of the
FAA
Finally, even if this Court believed that the proper interpretation of the transportation worker exemption may at some point warrant review by this
Court, this is not the right case or the right time for
this Court to take up this question.
First, every circuit to have considered the question presented here has agreed that workers do not
have to physically cross state lines in order to fall
under Section 1’s exemption. See Waithaka, 966 F.3d
10; Rittmann, 971 F.3d 904; Palcko, 372 F.3d 588
(“[H]ad Congress intended the residual clause of the
exemption to cover only those workers who physically
transported goods across state lines, it would have
phrased the FAA's language accordingly.”);
Bacashihua, 859 F.2d 402; Am. Postal Workers Union, AFL-CIO, 823 F.2d 466.
Given that the Courts of Appeals that have considered the issue are in agreement that a worker
need not personally cross state lines to be “engaged
in commerce” under Section 1—and their conclusion
faithfully adheres to the text of the statute and this
Court’s precedent—this Court will likely not need to
weigh in at all. Indeed, as more courts confront this
issue and have occasion to grapple with the same

31

question, a consensus will likely continue to grow
that drivers like the Amazon drivers here, who
transport goods on the “last mile” of their interstate
journey, are engaged in interstate commerce under
Section 1 for the reasons noted above. Thus, the
Court should at least wait until it has obtained “the
benefit it receives from permitting several courts of
appeals to explore a difficult question before [it]
grants certiorari.” United States v. Mendoza, 464
U.S. 154, 160 (1984).
Moreover, as set forth above, Amazon conflates
different questions about the proper contours of the
transportation worker exemption in its effort to create the illusion of a current circuit-split among the
courts of appeals. In reality, the cases cited by Amazon turn on distinct questions, not presented by this
case, such as whether workers who are a step removed form transporting goods can qualify for the
exemption, see Eastus, 960 F.3d 207, or whether the
exemption covers the transportation of passengers as
well as goods and how it applies in the different factual context of ride-sharing service drivers, see
Singh, 939 F.3d 210. There are only a handful of appellate decisions that actually speak to the question
presented by this case: whether being “engaged in
interstate commerce” for purposes of Section 1 requires that a worker physically transport goods
across state lines, and those decisions all consistently
agree that it does not.
Because the disagreement Amazon manufactures
in its petition does not even relate to the question
presented here, this case is not the right vehicle to
decide the issues Amazon describes.

32

CONCLUSION
The petition should be denied.
Respectfully submitted,
Shannon Liss-Riordan, Counsel of Record
Harold Lichten
Adelaide H. Pagano
LICHTEN & LISS-RIORDAN, P.C.
729 Boylston Street, Suite 2000
Boston, Massachusetts 02116
sliss@llrlaw.com
January 2021

